 FEDERAL ELECTION COMMISSION 


  OFFICE OF INSPECTOR GENERAL 





            FINAL REPORT 


Audit of the Federal Election Commission’s

  Fiscal Year 2011 Financial Statements 





             November 2011 


         ASSIGNMENT No. OIG-11-01 

                  FEDERAL ELECTION COMMISSION
                  WASHINGTON, D.C. 20463
                  Office of Inspector General




MEMORANDUM

TO:    	      The Commission

FROM:         I	 nspector General

SUBJECT: 	    Audit of the Federal Election Commission’s Fiscal Year 2011 Financial
              Statements

DATE:	         November 14, 2011


Pursuant to the Chief Financial Officers Act of 1990, commonly referred to as the “CFO
Act,” as amended, this letter transmits the Independent Auditor’s Report issued by Leon
Snead & Company (LSC), P.C. for the fiscal year ending September 30, 2011. The audit
was performed under a contract with, and monitored by, the Office of Inspector General
(OIG), in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.

Opinion on the Financial Statements

LSC audited the balance sheet of the Federal Election Commission (FEC) as of
September 30, 2011, and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity (the financial statements) for the year then
ended. The objective of the audit was to express an opinion on the fair presentation of
those financial statements. In connection with the audit, LSC also considered the FEC’s
internal control over financial reporting and tested the FEC’s compliance with certain
provisions of applicable laws and regulations that could have a direct and material effect
on its financial statements. The financial statements of the FEC as of September 30,
2010, were also audited by LSC whose report dated November 12, 2010, expressed an
unqualified opinion on those statements.

In LSC’s opinion, the financial statements present fairly, in all material respects, the
financial position, net cost, changes in net position, budgetary resources, and custodial
activity of the FEC as of, and for the year ending September 30, 2011, in conformity with
accounting principles generally accepted in the United States of America.
Report on Internal Control

In planning and performing the audit of the financial statements of the FEC, LSC
considered the FEC’s internal control over financial reporting (internal control) as a basis
for designing auditing procedures for the purpose of expressing their opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness
of the FEC’s internal control. Accordingly, LSC did not express an opinion on the
effectiveness of the FEC’s internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls; misstatements, losses, or noncompliance may
nevertheless occur and not be detected. According to the American Institute of Certified
Public Accountants:
   •	 A control deficiency exists when the design or operation of a control does not
       allow management or employees, in the normal course of performing their
       assigned functions, to prevent or detect misstatements on a timely basis.
   •	 A significant deficiency is a control deficiency, or combination of control
       deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
       process, or report financial data reliably in accordance with generally accepted
       accounting principles such that there is a more than remote likelihood that a
       misstatement of the entity’s financial statements that is more than inconsequential
       will not be prevented or detected by the entity’s internal control.
   •	 A material weakness is a significant deficiency, or combination of significant
       deficiencies, that results in more than a remote likelihood that a material
       misstatement of the financial statements will not be prevented or detected by the
       entity’s internal control.

LSC’s consideration of internal control was for the limited purpose described in the first
paragraph in this section and would not necessarily identify all deficiencies in internal
control that might be significant deficiencies or material weaknesses. LSC did not
identify any deficiencies in internal control that LSC would consider to be material
weaknesses, as defined above. However, LSC identified, as listed below, two
deficiencies in internal controls that LSC considers to be significant deficiencies.
    •	 Internal Controls over Financial Reporting
    •	 Information Technology (IT) Security Control Weaknesses


Report on Compliance with Laws and Regulations

FEC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FEC’s financial statements
are free of material misstatements, LSC performed tests of compliance with certain
provisions of laws and regulations, noncompliance which could have a direct and
material effect on the determination of financial statement amounts, and certain other
laws and regulations specified in OMB Bulletin No. 07-04, as amended. LSC did not test
compliance with all laws and regulations applicable to FEC.


                                               2

The results of LSC’s tests of compliance with laws and regulations described in the audit
report disclosed no instance of noncompliance with laws and regulations that are required
to be reported under U.S. generally accepted government auditing standards or OMB
guidance.

Audit Follow-up

The independent auditor’s report contains recommendations to address deficiencies found
by the auditors. Management was provided a draft copy of the audit report for comment
and generally concurred with the findings and recommendations. In accordance with
OMB Circular No. A-50, Audit Follow-up, revised, the FEC’s corrective action plan is to
set forth the specific action planned to implement the recommendations and the schedule
for implementation. The Commission has designated the Chief Financial Officer to be
the audit follow-up official for the financial statement audit.

OIG Evaluation of Leon Snead & Company’s Audit Performance

We reviewed LSC’s report and related documentation and made necessary inquiries of its
representatives. Our review was not intended to enable the OIG to express, and we do
not express an opinion on the FEC’s financial statements; nor do we provide conclusions
about the effectiveness of internal control or conclusions on FEC’s compliance with laws
and regulations. However, the OIG review disclosed no instances where LSC did not
comply, in all material respects, with Government Auditing Standards.

We appreciate the courtesies and cooperation extended to LSC and the OIG staff during
the audit. If you should have any questions concerning this report, please contact my
office on (202) 694-1015.




                                                    Lynne A. McFarland
                                                    Inspector General

Attachment

Cc: 	   Alec Palmer, Staff Director/Chief Information Officer
        Mary G. Sprague, Chief Financial Officer
        Anthony Herman, General Counsel




                                            3

FEDERAL ELECTION COMMISSION

     Audit of Financial Statements


       As of and for the Years Ended

        September 30, 2011 and 2010





                   Submitted By


            Leon Snead & Company, P.C.

Certified Public Accountants & Management Consultants
                                    TABLE OF CONTENTS




                                                                                                                            Page


Independent Auditor’s Report..............................................................................................1


       Summary.....................................................................................................................1


       Opinion on the Financial Statements ..........................................................................2


       Internal Control over Financial Reporting..................................................................2


       Findings and Recommendations .................................................................................3


             1. Internal Controls over Financial Reporting ....................................................3


             2. IT Security Control Weaknesses.....................................................................7


       Compliance with Laws and Regulations...................................................................22


      Appendix 1 - Status of Prior Year Reportable Conditions ........................................24


      Appendix 2 - Agency Response to Draft Report .......................................................25





                                                                i
tests of the FEC’s compliance with certain provisions of applicable laws and regulations,
and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the FEC as of September 30, 2011
and 2010, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position, net cost, changes in net position, budgetary resources, and
custodial activity of the FEC as of and for the years ended September 30, 2011 and 2010,
in conformity with accounting principles generally accepted in the United States of
America.

The information in the Management’s Discussion and Analysis section is not a required
part of the basic financial statements but is supplementary information required by
accounting principles generally accepted in the United States of America or OMB
Circular A-136, Financial Reporting Requirements, revised. We have applied certain
limited procedures, which consisted principally of inquiries of FEC management
regarding the methods of measurement and presentation of the supplementary
information and analysis of the information for consistency with the financial statements.
However, we did not audit the information and express no opinion on it. The
Performance and Accountability Report, except for Management’s Discussion and
Analysis, is presented for the purposes of additional analysis and is not a required part of
the basic financial statements. Such information has not been subjected to the auditing
procedures applied in the audit of the basic financial statements and, accordingly, we
express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the financial statements of the FEC as of and for
the years ended September 30, 2011 and 2010, in accordance with auditing standards
generally accepted in the United States of America, we considered the FEC’s internal
control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but not
for the purpose of expressing an opinion on the effectiveness of the FEC’s internal
control. Accordingly, we do not express an opinion on the effectiveness of the FEC’s
internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls; misstatements, losses, or noncompliance may
nevertheless occur and not be detected. A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis.
A material weakness is a deficiency, or combination of significant deficiencies, in



Leon Snead & Company, P.C.                      2
internal control, such that there is a reasonable possibility that a material misstatement of
the financial statements will not be prevented or detected and corrected on a timely basis.
A significant deficiency is a control deficiency, or combination of control deficiencies,
that is less severe than a material weakness, yet important enough to merit attention by
those charged with governance of the FEC.

Our consideration of internal control was for the limited purpose described in the first
paragraph in this section of the report and would not necessarily identify all deficiencies
in internal control that might be deficiencies, significant deficiencies or material
weaknesses. We did not identify any deficiencies in internal control that we consider to
be material weaknesses, as defined above. However, as discussed below, we identified
certain deficiencies in internal control that we consider to be significant deficiencies.

Findings and Recommendations

1. Internal Controls over Financial Reporting

   a. Controls over Disbursements Needed Strengthening

       Office of the Chief Financial Officer (OCFO) personnel incorrectly paid current
       year expenses with prior year funds. We attributed this problem to OCFO
       personnel who bypassed established internal controls. As a result, FEC was not in
       compliance with federal regulations.

       Title 31 U.S.C. §1502 (a) provides that, “The balance of an appropriation or fund
       limited for obligation to a definite period is available only for payment of
       expenses properly incurred during the period of availability or to complete
       contracts properly made within that period of availability and obligated consistent
       with section 1501 of this title. However, the appropriation or fund is not available
       for expenditure for a period beyond the period otherwise authorized by law.”
       OMB Circular A-11, Preparation, Submission, and Execution of the Budget,
       revised, also provides guidance in this area.

       During our audit, we selected a statistical sample of 45 expense transactions and
       performed audit tests to ensure the propriety of the transactions. Our tests found
       that three of the transactions were not processed in compliance with budgetary
       requirements and agency policies. The three payments, all relating to the same
       vendor, totaling approximately $11,500, were incorrectly processed to 2010 and
       2009 fiscal year obligations instead of current fiscal year obligations.

       OCFO officials concurred that a misclassification had taken place, researched and
       corrected the budget year classifications, and analyzed other payments as
       recommended in our interim Notice of Finding and Recommendation (NFR).
       OCFO officials also advised that additional training was provided to personnel to
       strengthen internal controls in this area.




Leon Snead & Company, P.C.                      3
       Because we verified that the OCFO took action to implement the
       recommendations contained in our NFR, we are making no recommendations in
       this report regarding the correction of the misclassification error.

       Agency Response

       Management concurs, in part, that a misclassification occurred due to an
       administrative error. The error was due to a training issue rather than an
       employee bypassing internal controls. The amount was insignificant and had no
       impact on the financial statements. Of the $11,500 identified by the auditors, only
       $6,300 applied to the current year. The OCFO corrected the error before the end
       of the fiscal year, as recommended by the auditors. Since the auditors found no
       further issues with regard to this error, no other recommendations were made.
       Management does not concur with the finding that the error contributed to the
       significant deficiency for internal controls over financial reporting. Management
       believes that this error was insignificant and does not reflect a significant
       deficiency in the agency’s internal controls.

       Auditor Comments

       We do not believe that the errors we identified were insignificant as FEC officials
       stated in their response. Based upon our assessment of these errors, we concluded
       that the weakness identified contributed to a significant deficiency in internal
       controls over financial reporting. We believe that violation of 31 U.S.C. 1502
       which states that appropriations may be obligated or expended only during the
       period of availability specified by law is a significant issue. Documents we
       obtained as part of our testing showed that accounting personnel had voiced
       concerns about processing the transactions against prior year obligations. Despite
       these concerns, OCFO personnel overrode controls and improperly processed the
       payments to prior fiscal year obligations in order to use funding available in prior
       years.

       FEC officials in their response stress that the errors noted were insignificant and
       had no impact on the financial statements. However, what must be considered is
       that OCFO personnel bypassed their established control procedures in order to
       improperly process payments. While we agree that the errors do not represent a
       misstatement in the financial statements, it should be noted that our statistical
       sample found an error rate of approximately seven percent for the transactions
       tested. FEC processed approximately 2,100 non-payroll expense transactions
       with an approximate dollar value of $17.6 million during FY 2011.

   b. Manual Systems Introduce Unnecessary Risk

       As of the end of the 2011 fiscal year, FEC had not converted its manual systems
       and processes to automated systems that are integrated or interfaced with the core
       accounting system. We attributed this problem to delays by FEC’s service



Leon Snead & Company, P.C.                     4
       providers regarding the integration of the payroll system, and to FEC’s position
       that manual systems regarding accounts receivable should not be converted. As a
       result, FEC accounts receivable and payroll systems remained at unnecessary risk,
       and are not in compliance with best practice control processes.

       OMB Circular No. A-127, Financial Management Systems, revised, defines a
       core financial system as the system of record that maintains all transactions
       resulting from financial events. It may be integrated through a common database
       or interfaced electronically to meet defined data and processing requirements.

       FEC uses a service provider (General Services Administration (GSA) - Pegasys)
       for its general ledger and core financial management system operations, and the
       National Finance Center (NFC) for payroll. The FEC also uses Excel
       spreadsheets and a PeopleSoft application to perform selected accounting
       operations. The financial management processes that still use significant manual
       operations include:

           •	 Payroll Accounting. The NFC based payroll system does not interface
              with the Pegasys accounting system. FEC used a PeopleSoft application
              throughout FY 2011 that was no longer supported to perform limited
              accounting operations in order to process payroll transactions into the
              agency’s accounting system. This process also required FEC to perform
              manual operations to reconcile the payroll data, and prepare standard
              vouchers to input the payroll data into its accounting system. As of
              October 2011, the agency has eliminated use of the PeopleSoft
              application.

               OCFO officials advised us that the FEC is working closely with NFC and
               GSA to integrate the NFC subsidiary system with Pegasys. The current
               timeline provides for these systems to be completely interfaced by
               March 2012.

           •	 Accounting for Collections of Fines and Penalties. The accounting for
              accounts receivables within FEC consists of several manual operations.
              The OCFO receives accounts receivable information from three divisions
              within the agency in several formats including Excel, Law Manager (a
              legal case tracking application), and Word. After the data is received, the
              information is input into a spreadsheet for further manual processing.
              OCFO personnel use the information from the spreadsheet to prepare a
              standard voucher that is submitted monthly to the agency’s service
              provider for posting to the general ledger. Collections received by FEC,
              however, are processed to the general ledger throughout the month when
              the payments are received. Therefore, only at the end of each month, after
              the standard voucher is posted to the general ledger, does the accounts
              receivable in the general ledger reflect an accurate balance.




Leon Snead & Company, P.C.	                   5
       Recommendations:

       1.	 Continue to work with NFC and GSA so that the two service provider’s
           systems can be interfaced according to the current timeline.

       2.	 Develop a time-phased corrective action plan to convert the manual accounts
           receivable process to an automated and integrated system.

       Agency Response

       Management concurs that it is important for agencies to consider automating
       manual processes whenever it is appropriate and cost effective to do so.
       However, management does not agree with the auditor’s interpretation of a
       financial management system. OMB Circular A-127, as revised in 2009, defines
       a financial management system as a system that “includes the core financial
       systems and the financial portions of mixed systems necessary to support
       financial management, including automated and manual processes, procedures,
       and controls, data, hardware, software, and support personnel dedicated to the
       operation and maintenance of system functions.”

       While the OCFO does have some manual steps in its financial process, the office
       has implemented compensating controls consistent with industry best practices to
       eliminate unnecessary risks.

       The OCFO evaluated the GSA Accounts Receivable and Collection System
       (ARCS) and determined that the system could not be utilized for FECA
       receivables because it does not allow the customization needed to meet the
       individual needs of the offices that enforce FECA debts.

       The Accounts Receivable balance is immaterial to the FEC’s financial statements
       and the volume of transactions is minimal. The expense of migration to an
       automated process is currently not in the best interest of the FEC or the Federal
       Government because it is not cost effective. The cost-effectiveness criterion is
       consistent with the GAO’s Report on Financial Management Systems (GAO-09­
       328), the testimony of OMB Controller before Congress on April 14, 2010, the
       draft of A-127 circulated October 15, 2010, and the OMB Memorandum M-11-29
       Chief Information Officer Authorities, issued August 8, 2011.

       As it relates to the payroll accounting, the OCFO verifies NFC data, independent
       of the PeopleSoft application, before submitting to GSA. The FEC is working
       closely with NFC and GSA on the integration of the payroll system with the GSA
       Pegasys accounting system. Additionally, the FEC is working on an Oracle
       upgrade project to replace the PeopleSoft application. These projects are
       expected to be completed during FY 2012.




Leon Snead & Company, P.C.	                   6
       Auditor Comments

       We continue to believe that it is important for FEC to convert its manual
       processes to automated systems that are integrated or interfaced with the core
       accounting system. It should be noted that this problem was reported by our
       predecessor auditors as part of a material weakness in their 2008 audit report.
       While the agency has made progress in correcting this past material weakness, the
       importance of eliminating manual systems or systems that do interface with the
       general ledger can be seen by the recent failure of its PeopleSoft application. A
       problem we and the prior auditors had identified for a number of years.

       FEC officials cite a GAO report to support their position that systems do not need
       to be standardized and integrated. In fact, the report cited addresses problems
       with the lack of standardization and integration of financial systems. For
       example, the report cites, “Over a number of years, we have reported that
       modernizing federal financial management systems has been a challenge at many
       federal agencies due, in part, to the past practices of each federal agency
       attempting to implement its own systems which have all too often resulted in
       failure, have been delayed, and cost too much. Recognizing the seriousness of
       this problem, in March 2004, the Office of Management and Budget (OMB)
       launched the financial management line of business (FMLOB) initiative, in part,
       to improve the outcome of government wide financial management system
       modernization efforts and provide timely and accurate data for decision making
       through the use of more cost-effective shared service solutions. Under this
       approach, agencies are to consider the use of certain shared service providers for
       meeting common support services, such as information technology (IT) hosting
       and application management, rather than investing in costly and redundant
       agency-specific solutions.”

       We continue to disagree with management’s conclusions as to the significance of
       the agency’s accounts receivable and collections system. FEC’s total custodial
       revenue for FY 2011 was over $1.1 million, and the volume of transactions is not
       minimal. The accounting for revenue consists of cumbersome manual and /or
       non-integrated operations involving several departments. Collections are posted
       to the general ledger when the payments are received, while accounts receivable
       is adjusted only at the end of each month, after the standard voucher is posted to
       the general ledger. We believe the agency should explore a more streamlined and
       timely approach which would be achieved through an integrated system.

2. IT Security Control Weaknesses

   While we reported in our 2010 financial statement audit report that FEC had
   implemented corrective actions or had plans developed to address most of the IT
   control weaknesses, progress has slowed during the 2011 fiscal year and most
   problem areas continued to impact FEC’s agency-wide IT security program. This
   was primarily due to the need for additional oversight by agency governance, and the



Leon Snead & Company, P.C.                    7
    absence of IT security procedures that meet best practices. As a result, FEC’s
    information and information systems are at additional risk until actions are taken to
    fully remediate the weaknesses discussed below.

    a.	 Configuration Management and USGCB/FDCC Security Controls Needs to
        be Fully Implemented

        Configuration management issues continue to impact FEC. FEC has issued
        procedures to address some of the problem areas identified in prior reports.
        However, our tests found that the configuration management process does not
        identify and log all changes to the configuration of FEC’s systems. Additionally,
        we again identified that the organization had not fully implemented the United
        States Government Configuration Baseline (USGCB) 1 requirements or ensured
        that its systems are in compliance with its own baseline configuration standards.

        Best practices addressing configuration management provide that the organization
        should develop, document, and maintain under configuration control a current
        baseline configuration of the information system. Best practices further note that
        the baseline configuration should provide information about the standard software
        loaded for a workstation, server, or network component including operating
        system, installed applications with current version numbers and patch
        information, network topology, etc.

        We compared the FEC provided configuration settings to a sample of laptop
        computers, and identified that the baseline configuration standards were not fully
        implemented. For example, one baseline configuration standard required that
        Simple File Sharing be disabled on workstations. However, our audit tests
        showed that this function had not been disabled. In addition, we identified
        specific services, such as; Universal Plug and Play, Netmeeting Remote Desktop
        Sharing, Remote Desktop Help Session Manager, and Remote Registry accesses
        that should have been disabled based on FEC’s baseline configuration standards,
        but remained active on workstations tested.

        The current FEC baseline configuration standards require that the “administrator
        account” be renamed and that access to administrator authorities is limited to
        users requiring such access. However, based on the computer settings we
        reviewed, users had been given local administrator rights that allowed them to
        change local settings such as screen saver usage, as well as the ability to start
        “services.” We were able to perform selected administrator authorities on laptops
        we tested. In addition, our review of available reports identified servers that did
        not have necessary patches, fixes, or service packs installed. For example, for


1
  The purpose of the United States Government Configuration Baseline (USGCB) initiative is to create
security configuration baselines for Information Technology products widely deployed across the federal
agencies. The USGCB baseline evolved from the Federal Desktop Core Configuration (FDCC) mandate.



Leon Snead & Company, P.C.	                           8
       two devices we tested, the service packs installed were outdated, and had not been
       supported for approximately a year.

       As we reported in our prior audit reports, FEC has not yet fully implemented
       security control requirements that OMB had established in 1997 as “best
       practices” security requirements for Windows computers (USGCB/FDCC).
       While FEC has established a project to adopt “selected” control requirements, the
       agency estimates that full implementation of “selected” controls will not be
       implemented until later in 2012. To illustrate, we have listed several requirements
       that could be easily changed, but have not, since we first reported this problem in
       our 2009 audit report. Details follow:

         Access Control Objective       FEC Settings         FDCC             Meets
                                                          Requirements        FDCC
        Enforce password history        5 passwords            24              No
                                        remembered
        Maximum password age              180 days              60              No
        Minimum password age               0 days                1              No
        Minimum password length         8 characters       12 characters        No

       Chief Information Officer (CIO) officials opined that FEC is 75 percent
       USGCB/FDCC compliant, and is working to implement selected additional
       components of the standard. These officials also opined that implementing many
       of the best practice security controls are too severe for FEC’s computing
       environment.

       We believe FEC’s position that “…implementing many of mentioned security
       controls are not best practice and too severe for its computing environment…”
       conflicts with guidance issued by all authoritative sources for IT security in the
       federal government. This includes the OMB, the National Institute for Standards
       and Technology (NIST), the Government Accountability Office (GAO), and the
       Chief Information Officers Council (CIOC). In addition, NIST IT security
       standards which incorporate the FDCC standards are established through a work
       group that consists of representatives of Civil, Defense, and Intelligence
       communities, as well other organizations in the public and private sectors, in an
       effort to produce a unified information security framework for the federal
       government.

       The CIOC (the principal interagency forum on federal IT management practices),
       of which the FEC CIO is a member, has endorsed the implementation of the
       FDCC and the USGCB. According to the CIOC, the USGCB creates a security
       configuration that provides baseline settings that federal agencies are required to
       implement for security reasons. The CIOC goes on to state in a September 15,
       2010 memorandum, issued to all Council members, that the USGCB (and the
       FDCC) settings are “...the minimum requirements…intended to be the core set of
       security configuration settings by which all agencies should comply….” FEC’s


Leon Snead & Company, P.C.                     9
       information and information systems are at increased risk by not adopting the
       minimum security requirements established for the federal government through
       the USGCB/FDCC standards.
       Recommendations:

       3.	 Implement baseline configuration standards for all workstations and require
           documentation and approval of any deviations from this standard.

       4.	 Fully implement USGCB/FDCC standards.

       5.	 Implement logging of configuration changes to ensure that all system changes
           are processed through the change management framework.

       Agency Response

       Management concurs, in part, with recommendation 3. The agency plans to
       establish baseline configuration standards for all workstations. However, these
       baseline configuration standards cannot be implemented until the completion of
       the FEC USGCB/FDCC Project.              Management concurs, in part, with
       recommendation 4. The FEC is already 75 percent USGCB/FDCC compliant and
       is working to implement additional components of the standard. However,
       management disagrees with the auditors that every agency must fully implement
       the USGCB/FDCC standard. It is the intent of the standard that only those
       controls within USGCB/FDCC conducive to each agency’s unique environment
       be implemented, and the decision to implement a particular control is left to the
       agency.

       Management concurs, in part, with recommendation 5. Management recognizes
       the need to review and approve all configuration changes (including workstation
       configuration changes); however, management is currently evaluating whether the
       best course of action is to integrate this into the current change management
       framework.

       Auditor Comments

       FEC officials have concurred, in part to our recommendations. The primary
       difference between FEC’s response and the audit recommendations relate to
       USGCB/FDCC security requirements.           Federal IT security experts have
       determined that implementation of the USGCB/FDCC is required to meet
       minimal IT security levels. FEC officials, however, consider the standards
       advisory. As we have discussed above, we believe FEC’s information and
       information systems are at increased risk by not adopting the minimum security
       requirements established for the federal government through the USGCB/FDCC
       standards.




Leon Snead & Company, P.C.	                  10
   b.	 Vulnerability Scanning Process Needs Strengthening

       FEC has established a vulnerability scanning program; however, not all segments
       of FEC’s network are currently included in the program. In addition, a
       comprehensive analysis of scanning results to identify root causes and track
       remedial actions were not always performed. We attributed this problem to FEC
       not adopting IT best practices. As a result, FEC has reduced assurances that the
       agency will detect potential vulnerabilities within its network.

       OMB Circular A-130, Management of Federal Information Resources, Appendix
       III provides that agencies “should assure that each system appropriately uses
       effective security products and techniques, consistent with standards and guidance
       from NIST (best practices).” Best practices note that vulnerability scanning is a
       key security control that is part of an agency’s risk assessment process.

       Our review of the vulnerability scanning performed by FEC during fiscal year
       2011 showed that many of the same problems reported in our prior audit
       continued to exist. For example, we found that over 200 of the 255 vulnerabilities
       identified in the 2011 scanning were also identified as problems in the scans
       performed in 2010 by FEC. We also found that individual workstations were
       excluded from the scanning process – a critical gap in the implementation of this
       control process. Therefore, the current vulnerability scanning process does not
       provide an accurate picture of FEC’s security posture.

       We discussed these problems with OCIO personnel who advised that although
       vulnerability scanning of workstations is prudent from a security standpoint,
       management has not evaluated the feasibility of integrating workstation scanning
       into its current vulnerability mitigation program. OCIO officials added that
       “scanning of workstations is not scheduled to occur until completion of the FDCC
       implementation project and the determination as whether workstation scanning
       will be a separate process or integrated into the current process cannot be made
       until then.”

       We continue to believe that vulnerability scanning is necessary for all of FEC’s IT
       assets. Without a robust vulnerability scanning program, FEC is not aware of all
       vulnerabilities that may exist in its network, and; therefore, is unable to mitigate
       potential vulnerabilities that could risk FEC’s information and information
       systems.

       Recommendations:

       6.	 Include all components of the general support system, including workstations,
           into the organization’s vulnerability scanning process.

       7.	 Implement procedures to ensure that scan results are subject to a “root cause”
           analysis to ensure that problems are fully resolved.



Leon Snead & Company, P.C.	                    11
            8.	 Develop a process to ensure that vulnerabilities identified through
                scanning are documented in a corrective action plan, and monitored to
                ensure timely remediation.

       Agency Response

       Management concurs, in part, with recommendation 6. Although FEC already
       scans workstations for viruses and spyware and has implemented an automated
       process for pushing security patches to all workstations to eliminate operating
       system vulnerabilities, additional vulnerability scanning of workstations is
       prudent. However, management has not evaluated the feasibility of integrating
       workstation scanning into its current vulnerability mitigation program. Scanning
       of workstations is not scheduled to occur until completion of the FDCC’s project.
       Management cannot determine whether workstation scanning will be a separate
       process or integrated into the current process until then. Management concurs
       with recommendations seven and eight.

       Auditor Comments

       FEC officials agreed with our recommendations except for a decision as to how
       the scanning of workstations will be performed (separate process or integrated).
       Our concern is that workstations should be included as part of the scanning
       program by FEC. This scanning could be accomplished either as a standalone
       scanning program, or integrated with other network scanning.

   c.	 Progress is Needed on System to Recertify Users’ Access Authorities

       FEC has not completed a periodic review of users’ access authorities. We
       attributed this problem to the need for additional management oversight over this
       problem area. As a result, FEC officials have limited assurance that users have
       access only to information and information systems that are necessary to
       accomplish the users’ job responsibilities. Best practices provides that an
       organization manage information system accounts, including reviewing accounts
       on a periodic basis.

       We reviewed the progress made by FEC to implement agreed upon corrective
       actions concerning periodic certification of users’ access authorities. We found
       that during fiscal year 2011 the agency had terminated the project established to
       develop processes to enable supervisors to recertify users’ access authorities.
       OCIO officials advised us that the project was incorporated into another ongoing
       project dealing with a document and records management system. FEC officials
       estimated that the overall project will be completed by approximately June 2012.




Leon Snead & Company, P.C.	                  12
       Recommendations:

       9.	 Establish and publish a policy that requires annual recertification of users’
           access authorities.

       10. Assure	 sufficient resources are provided to the document and records
           management system (Livelink) so that it can be completed no later than June
           2012.

       Agency Response

       Management concurs, in part, with recommendation 9. Although management
       agrees that recertification of user access authorities is prudent, management
       believes a biennial review would be a more efficient use of scarce resources.
       Management concurs, in part, with recommendation 10. However, management
       cannot guarantee that available resources will not be reallocated to accommodate
       the level of activity anticipated in connection with the 2012 election cycle.

       Auditor Comments

       FEC officials agree in part with our recommendations, and notes staffing issues as
       an impediment to our recommendation for annual reviews of user access
       authorities. Because FEC has never fully performed an agency-wide review of
       user access authorities, we believe that the review should be made annually until
       the number of issues noted is reduced to minimal levels.

   d.	 Removal of User Access for Departed Personnel Needs Improvement

       FEC continues to have problems timely removing network access for separated
       employee and contractor personnel. The absence of an effective process to
       control the removal of separated personnel from FEC’s network poses a
       significant security risk to the agency’s information and information systems.

       Problems continued to exist even though FEC established a new system, FEC
       System Access (FSA), to control the timely addition and termination of users to
       FEC’s network. As shown below, we identified personnel that had departed for
       up to three years, but were still active on FEC’s network. Details follow:

                       Employee                Date Left Agency
                   Number 1                   September 30, 2008
                   Number 2                     May 26, 2010
                   Number 3                   December 19, 2009
                   Number 4                      March 2011
                   Number 5                      March 2011




Leon Snead & Company, P.C.	                   13
       Recommendations:

       11. Validate all active users to assure that only individuals who are currently and
           properly authorized have access to FEC’s information and information
           systems.

       12. Analyze the reasons separated personnel retained access to FEC systems, and
           develop additional controls to ensure that FEC timely removes access for
           individuals who leave the agency.

       Agency Response

       Management concurs with recommendations 11 and 12. Management has
       discovered the reasons why five individuals’ access was not properly removed
       and is evaluating various additional controls to ensure that FEC timely removes
       access for individuals who leave the agency.

       Auditor Comments

       Since FEC concurs with this finding and the associated recommendations, we
       have no additional comments.

   e. Effective Tracking of Security Awareness Training Needed

       FEC needs to strengthen its control processes dealing with providing security
       awareness training and obtaining acknowledgement of the rules of behavior for
       employees and contractors. We attributed the problems to the absence of an
       effective tracking system that would identify personnel who did not take required
       training. As a result, FEC is not in compliance with its policies and best practices.

       OMB Circular A-130, Appendix III requires that agencies provide security
       awareness training and rules of behavior to personnel prior to granting access to
       an agency’s systems.

       Information obtained on the 2011 security awareness training provided to FEC
       personnel and contractors disclosed ten people who had not completed the
       training by the required date. OCIO personnel were unable to provide
       documentation to support why the training had not been completed, and the
       personnel continued to have access to the system.               In addition, since
       acknowledgement of rules of behavior is a part of the security training process,
       current rules of behavior were also not obtained for these individuals.

       Recommendations:

       13. Establish controls that would automatically suspend an individual’s network
           access if security awareness training is not completed within required
           timeframes.


Leon Snead & Company, P.C.                     14
       14. Ensure all personnel and contractors that have not yet taken the security
           awareness training complete it within the next 30 days.

       Agency Response

       Management concurs, in part, with recommendation 13 and 14. Management
       agrees that removing network access is prudent for those individuals who fail to
       complete security awareness training in a timely fashion; however, Commission
       approval will be required prior to implementation.

       Auditor Comments

       FEC concurs with this finding and the associated recommendations, and notes that
       Commission approval will be required before any changes can be implemented.
       We believe that adopting the audit recommendations will further strengthen
       FEC’s IT security program.

   f. Last Phase of COOP and Contingency Planning Needs Completion

       While FEC has completed most of the last phase of its multi-year plan to
       implement a Continuity of Operations Plan (COOP) document, we found that
       FEC has not yet tested and exercised the COOP – a critical element in the
       development of a comprehensive and effective plan. We attributed this problem
       to the need for more effective oversight over the COOP testing process. As a
       result, FEC systems are at increased risk without a properly tested COOP
       document.

       FEC’s most recent COOP planning documents showed that the agency had
       planned to complete necessary testing and exercise of its COOP by July 2011.
       We discussed this matter with FEC officials, and were advised that the COOP
       testing was delayed due to the illness of a key project team member. The official
       added that the completion of testing was deferred until approximately the
       beginning of calendar year 2012.

       Federal Continuity Directive No.1, Federal Executive Branch National Continuity
       Program, requires that COOP documents must be validated through tests,
       training, and exercises (TT&E), and that all agencies must plan, conduct, and
       document periodic TT&E to prepare for all-hazards continuity emergencies,
       identify deficiencies, and demonstrate the viability of their continuity plans and
       programs.

       Recommendation:

       15. Ensure that sufficient resources are assigned to the task of testing the COOP
           in order to reduce the risks to FEC operations.




Leon Snead & Company, P.C.                    15
       Agency Response

       Management concurs, in part, with recommendation 15. Management cannot
       guarantee available resources will not be reallocated to accommodate the level of
       activity anticipated in connection with the 2012 election cycle.

       Auditor Comments

       FEC officials concurred with the recommendation, except that resources may not
       be available to reallocate during an important election cycle. We believe that the
       testing of the COOP plan is a key area, and the agency should ensure that
       necessary resources are available to accomplish this important task.

   g.	 Controls over Copy Protected Software and User Installed Files Needs
       Improvement

       FEC needs to develop, document, and implement control processes dealing with
       copy protected software that address best practice requirements, and to restrict
       access over the applications, folders and data stored in the “userinstall” network
       folder. As discussed below, we identified control weaknesses in both areas,
       resulting in increased risk to the agency’s information and information systems
       and non-compliance with software quantity license restrictions.

       Best practices control requirements provide that the organization uses software
       and associated documentation in accordance with contract agreements and
       copyright laws, and employs tracking systems for software and associated
       documentation protected by quantity licenses to control copying and distribution.

           •	 User Installed Files
              FEC personnel provided the auditors system data reports which identified
              that all FEC personnel and contractors with access to FEC’s network have
              the authority to access the “userinstall” folder. We initially accessed this
              folder to perform control testing relating to copy protected software for
              one sample application. However, when we began our tests, we noted a
              large number of folders and files located in this network folder appeared to
              be executable applications, and some applications appeared to be copy
              protected software.

               We identified over 200 folders and files in the “userinstall” network
               folder. These folders and files consisted of approximately 75 applications,
               some of which dated to 2007, that were listed as executable. In addition,
               we identified approximately 80 additional sub-folders that in many cases
               also contained executable files. The remaining files and folders consisted
               of miscellaneous information and data. We tested the executable files in
               approximately 20 of these folders, and found that over fifty percent
               allowed us to install the application. We did not continue to fully install



Leon Snead & Company, P.C.	                   16
               the application when it appeared the application would install an older
               version and/or was a network server application. For some files, we were
               denied access because of security controls or other errors that prevented
               installation of the application.

               For those files where we continued to fully install the application, we
               installed copy protected software, and an old “trial version” of an
               application. For two applications in this folder relating to updates to
               server applications, we discussed the results of our testing with the CIO
               officials, and the applications were removed from this folder.

           •   Copy Protected Software
               To test the controls that FEC had established over copy protected
               software, we selected an application that had a quantity license limitation
               of 50 users. For this application, we found that the software was placed on
               an FEC network drive that was accessible to all FEC employees and
               contractors with FEC network access.

               When we requested from OCIO personnel the processes FEC followed to
               ensure that this application would be limited to 50 users, we were advised
               that the application’s folder was secured, and only specific authorized
               users could install the application. However, our audit determined that the
               software could be installed by any of the approximately 400 users with
               access to FEC’s network. As a result, FEC was at risk of being in
               violation of quantity licensing requirements for copy protected software.

               We requested from FEC the specific written control processes followed by
               the agency to ensure that it complied with purchased software quantity
               licensing requirements. However, we were not provided with specific
               written control procedures or processes that addressed best practice
               requirements or Commission directives. In fact, Commission Directive
               58: Electronic Records, Software and Computer Usage, states, “Strict
               control over computer software is necessary to maintain the integrity and
               coherence of the agency’s information technology architecture (ITA),
               (and) to comply with intellectual property copyright laws and licensing
               agreements.…”

       Recommendations:

       16. Develop specific control processes and issue operational policies that establish
           automated control procedures to ensure that FEC uses software and associated
           documentation in accordance with contract agreements and copyright laws.

       17. Restrict network folders & subfolders containing copyright applications and
           software to only authorized users based on the operational policies developed
           and implemented.



Leon Snead & Company, P.C.                     17
       18. Review all folders and files on the “userinstall” network folder, and remove
           all applications and data that are not current, or do not meet the specific
           operational purposes of this folder.

       Agency Response

       Management concurs, in part, with recommendation 16. However, management
       disagrees with many of the conclusions cited in the finding. Management
       believes the risk of violating any copyright laws or user authorization is minimal
       compared to the increase in productivity of facilitating controlled user software
       installation software. Many of the items cited in the finding (such as older
       versions of software) are based upon operational necessity.              However,
       management believes there may be room for improvement, and will review its
       methods to ensure that FEC uses software and associated documentation in
       accordance with contract agreements and copyright laws. Upon conclusion of the
       review, management will adjust its procedures and policies accordingly.

       Implementing an automated process to control the security of the software
       installation process is dependent upon funding. In addition, limiting the use of
       software and associated documentation protected by quantity licenses to
       purchased licenses is dependent upon evaluating the cost versus risk of
       purchasing quantity licenses or purchased licenses per software package.

       Management concurs, in part, with recommendation 17. Access to network
       folders & subfolders containing copyright applications and software is already
       restricted; however, management will evaluate the impact on operational
       effectiveness of further restricting access to userinstall and adjust its methods
       accordingly. Management concurs with recommendation 18.

       Auditor Comments

       FEC has a legal responsibility to comply with contract requirements, including
       meeting the licensing requirements for the software it purchases.          The
       Government Accountability Office (GAO), Standards for Internal Control, in the
       Federal Government, defines the minimum levels of internal control in
       government and provides the basis against which internal control is to be
       evaluated. The standards require management to establish and maintain an
       environment throughout the organization that sets a positive and supportive
       attitude toward internal control and conscientious management. OMB Circular
       A-123, Management’s Responsibility for Internal Control, provides that agencies
       and individual Federal managers must take systematic and proactive measures to
       develop and implement appropriate, cost-effective internal control for results-
       oriented management.

       We disagree with FEC’s position that it has implemented the necessary security
       controls to mitigate the risk to an acceptable level. Our tests showed that there



Leon Snead & Company, P.C.                    18
       were no effective controls in place to ensure that the agency complied with the
       software’s quantity licensing requirements.

   h.	 FEC’s IT Security Program Would be Strengthened by Adopting Federal
       Government Security Standards

       FEC has not adopted government-wide IT security controls and techniques issued
       by the National Institute of Standards and Technology (NIST). We attributed this
       condition to FEC management’s belief that the agency’s IT information and
       information systems are adequately secured even if many of the government-wide
       minimum security requirements have not been adopted by FEC. As a result,
       FEC’s information and information systems are at increased risks.

       In our 2009 and 2010 audit reports, we recommended that FEC adopt the NIST IT
       security controls established in FIPS 200, Minimum Security Requirements for
       Federal Information and Information Systems, and SP 800-53, Recommended
       Security Controls for Federal Systems and Organizations, and other related NIST
       security documents. We also reported that the Government Accountability Office
       (GAO), that is also exempt from FISMA compliance, has voluntarily adopted the
       NIST security requirements. GAO stated that it adopted FISMA requirements to
       strengthen its information security program, and that FISMA and related federal
       guidance from the Office of Management and Budget constitute the cornerstone
       of its security program, establishing the procedures and practices that strengthen
       their protections through the implementation of security “best practices.”

       The Inspector General’s “Statement on the Federal Election Commission’s
       Management and Performance Challenges” dated October 14, 2010, stated:

           “… [we] first identified information technology security as a challenge in
           2004, the first year the Inspector General prepared a report of this kind. While
           the commitment of the FEC staff to improve IT security is vital, the OIG
           continues to believe the adherence to government-wide IT security standards
           is an important part of an effective security program. GAO has cited the
           enactment of the Federal Information Security Management Act of 2002
           (FISMA) as important legislation requiring the development, documentation,
           and implementation of an agency-wide information security program…the
           OIG feels that the FEC should formally adopt adherence in principle to
           FISMA and the NIST standards. We continue to believe this is a necessary
           and an important step for the FEC to ensure that the agency’s vital operations
           are safe and secure according to government standards.”

       The FEC commented on the Inspector General’s management challenges, and
       noted that “In sum, the level of security provided by the FEC IT Security Program
       is within the guidance provided by applicable federal standards, including the
       exemption of the agency from FISMA and National Institute of Standards and
       Technology standards.”



Leon Snead & Company, P.C.	                    19
       Although the FEC has actions ongoing to address some of the problem areas we
       have reported, overall progress has been slow. In other areas, FEC has not agreed
       to implement strengthened controls by fully adopting best practice control
       requirements. For example: FEC has not fully adopted: (1) USGCB/FDCC
       standards; (2) certification and accreditation controls that require independent
       reviews at least every three years; (3) risk assessment controls and vulnerability
       scanning; and (4) systems and services acquisition controls, including Federal
       Acquisition Regulations (FAR) related IT controls for contractors. The FAR
       requires agencies to include in IT contracts requirements that contractors must
       follow NIST security requirements. However, FEC officials advised us that the
       agency is exempt from these FAR requirements because the agency is exempt
       from the Paperwork Reduction Act and it’s corresponding IT security
       requirements.

       We requested documentation to determine whether FEC had completed an
       analysis of the risks associated with not adopting recognized IT security controls,
       and that officials had accepted the increased risks to the FEC information and
       information systems. However, we found neither a procedure that required such
       an analysis, nor documentation that an analysis had been performed.

       We discussed this matter with OCIO officials who advised that it would be
       improper for the FEC to disregard the will of Congress, which has exempted FEC
       from FISMA compliance. These OCIO officials added that it was not the original
       intent of NIST to impose a set of standards to which all federal agencies must
       adhere. However, these officials added that FEC does utilize NIST as one source
       of guidance when determining best practice.

       FEC officials’ statements about disregarding the will of Congress have already
       been addressed by FEC’s own Office of General Counsel (OGC). In documents
       provided to us, OGC has noted that FEC could elect to adopt NIST standards. In
       addition, FEC’s comment that “…it was not the original intent of NIST to impose
       a set of standards that all federal agencies must adhere to” is not correct. For
       example, OMB Memorandum M-10-15, dated April 21, 2010, states: “…Is use of
       National Institute of Standards and Technology (NIST) publications required?
       Yes. For non-national security programs and information systems, agencies must
       follow NIST standards and guidelines.”

       Recommendations:

       19. Formally adopt the NIST IT security controls established in FIPS 200,
           Minimum Security Requirements for Federal Information and Information
           Systems, and SP 800-53, Recommended Security Controls for Federal Systems
           and Organizations.




Leon Snead & Company, P.C.                    20
       20. Require FEC contractors to adhere to the FAR	 related IT controls when
           providing services to the FEC to ensure sufficient controls are in place to meet
           best practices.

       Agency Response

       Management does not concur with recommendation 19 for several reasons.
       Although the FEC is exempt from the Paperwork Reduction Act (PRA), which
       requires federal agencies to adhere to the National Institute of Standards and
       Technology (NIST) standards for information technology security, it continues to
       use these standards as guidance. As a small agency, the FEC would be especially
       burdened by the additional overhead expenses associated with adhering to all
       NIST standards. Instead, the agency retains the flexibility to adopt NIST
       guidelines as appropriate, which was the original intent of these standards, and to
       consider best practices identified from other sources where those standards will
       best serve the FEC’s needs. NIST standards nevertheless form the basis for the
       FEC’s security program.

       Utilizing this guidance, the FEC has identified 29 best practices and implemented
       policies based upon them. The FEC is currently evaluating additional best
       practices to determine whether incorporating them into its security program will
       support the agency’s overall IT security needs. In addition, the agency’s 2009
       third party, independent Certification and Accreditation project was based upon
       NIST standards. These policies and the Certification and Accreditation process
       not only describe the FEC’s minimum security controls, but also affirm its
       decision not to rely upon a single source of guidance for best practices. Instead,
       the FEC draws upon other sources and tailors those best practices to its unique
       computing environment.

       Management does not concur with recommendation 20. The FEC already
       requires contractors to comply with its IT security policies and best practices.

       Auditor Comments

       As we discussed in this and our prior audit reports, we believe that until FEC
       adopts best practice requirements that establish minimum security levels, the
       agency’s information and information systems will remain at risk.

A summary of the status of prior year findings is included as Appendix 1.

We noted another control deficiency over financial reporting and its operation that we do
not consider a significant deficiency, but still needs to be addressed by management. We
have reported this matter to the management of the FEC, and those charged with
governance in a separate letter dated November 10, 2011




Leon Snead & Company, P.C.	                    21
COMPLIANCE WITH LAWS AND REGULATIONS

The results of our tests of compliance with certain provisions of laws and regulations, as
described in the Responsibilities section of this report, disclosed no instance of
noncompliance with laws and regulations that is required to be reported under
Government Auditing Standards and OMB Bulletin 07-04 (as amended).

We noted a matter involving compliance with certain provisions of laws and regulations
and its operation that we do not consider to be significant. We have reported this matter
to the management of the FEC, and those charged with governance in a separate letter
dated November 10, 2011.

RESPONSIBILITIES

Management Responsibilities

Management of the FEC is responsible for: (1) preparing the financial statements in
conformity with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act (FMFIA) are met; and (3)
complying with applicable laws and regulations. In fulfilling this responsibility,
estimates and judgments by management are required to assess the expected benefits and
related costs of internal control policies.

Auditor Responsibilities

Our responsibility is to express an opinion on the financial statements based on our audit.
We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements (as
amended). Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement.

An audit includes: (1) examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements; (2) assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In planning and performing our audit, we considered the FEC’s internal control over
financial reporting by obtaining an understanding of the agency’s internal control,
determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls in order to determine our auditing procedures for




Leon Snead & Company, P.C.                     22
                                                                                              Appendix 1




                           Status of Prior Year Reportable Conditions



                     Recommendation                                            Status As of
                                                                            September 30, 2011
1. Provide additional training to personnel involved in              Recommendation closed.
   accounts payable control processes, and stress to
   supervisors that reviews of accounts payable accruals must
   be more effective. Ensure when errors are noted, the
   reviewer follows up to ensure corrections are made.
2.   Convert FEC manual systems and processes to automated           Recommendation open – reported as
     systems that are integrated or interfaced with the core         significant deficiency.
     accounting system.
3.   Ensure that FEC baseline configuration standards are            Recommendation open – reported as
     implemented in accordance with FDCC requirements for all        significant deficiency.
     workstations.
4.   Perform periodic assessments of baseline configuration          Recommendation open – reported as
     settings as part of FEC’s continuous monitoring program.        significant deficiency.
5.   Include all components of the general support system,           Recommendation open – reported as
     including workstations, into the organization’s vulnerability   significant deficiency.
     scanning process to ensure that the general support system,
     in its entirety, is periodically assessed.
6.   Implement additional controls to ensure that former             Recommendation open – reported as
     employees’ access to the network is terminated in               significant deficiency.
     accordance with FEC policies.
7.   Assure sufficient resources are provided to complete the        Recommendation open – reported as
     project dealing with the establishment of processes to          significant deficiency.
     enable periodic review of users’ access authorities.
8. Require that dial-up access is properly secured as required       Recommendation closed.
   by best practices, or terminate this type of access for users.
9.   Revise FEC procedures to require that all new personnel         Recommendation open – reported as
     and contractors take the security awareness training, and       significant deficiency.
     acknowledge rules of behavior prior to being granted access
     to FEC systems.
10. Monitor the POA&M to ensure that the documents are               Recommendation open – reported as
    completed and fully tested by the end of the 2010 calendar       significant deficiency.
    year.
11. Adopt as a model the NIST IT security controls established       Recommendation open – reported as
    in FIPS 200, Minimum Security Requirements for Federal           significant deficiency.
    Information and Information Systems, and SP 800-53,
    Recommended Security Controls for Federal Systems and
    Organizations.




 Leon Snead & Company, P.C.                               24
                                   Federal Election Commission

                            Fiscal Year 2011 Financial Statement Audit

                             Management Responses to Audit Findings




1.   Internal Controls over Financial Reporting

     Auditor Recommendation 1a: Controls over Disbursements Needed Strengthening

     Management Response to 1a: Management concurs, in part, that a misclassification
     occurred due to an administrative error. The error was due to a training issue rather than an
     employee bypassing internal controls. The amount was insignificant and had no impact on
     the financial statements. Of the $11,500 identified by the auditors, only $6,300 applied to the
     current year. The OCFO corrected the error before the end of the fiscal year, as
     recommended by the auditors. Since the auditors found no further issues with regard to this
     error, no other recommendations were made. Management does not concur with the finding
     that the error contributed to the significant deficiency for internal controls over financial
     reporting. Management believes that this error was insignificant and does not reflect a
     significant deficiency in the agency’s internal controls.

     Auditor Recommendation 1b: Manual Systems Introduce Unnecessary Risk

     Management Response to Recommendations #1 and 2: Management concurs that it is
     important for agencies to consider automating manual processes whenever it is appropriate
     and cost effective to do so. However, management does not agree with the auditor’s
     interpretation of a financial management system. OMB Circular A-127, as revised in 2009,
     defines a financial management system as a system that “includes the core financial systems
     and the financial portions of mixed systems necessary to support financial management,
     including automated and manual processes, procedures, and controls, data, hardware,
     software, and support personnel dedicated to the operation and maintenance of system
     functions.”

     While the OCFO does have some manual steps in its financial process, the office has
     implemented compensating controls consistent with industry best practices to eliminate
     unnecessary risks.

     The OCFO evaluated the GSA Accounts Receivable and Collection System (ARCS) and
     determined that the system could not be utilized for FECA receivables because it does not
     allow the customization needed to meet the individual needs of the offices that enforce FECA
     debts.

     The Accounts Receivable balance is immaterial to the FEC’s financial statements and the
     volume of transactions is minimal. The expense of migration to an automated process is
     currently not in the best interest of the FEC or the Federal Government because it is not cost
     effective. The cost-effectiveness criterion is consistent with the GAO’s Report on Financial
     Management Systems (GAO-09-328), the testimony of OMB Controller before Congress on
     April 14, 2010, the draft of A-127 circulated October 15, 2010, and the OMB Memorandum
     M-11-29 Chief Information Officer Authorities, issued August 8, 2011.


                                                 26
                                 Federal Election Commission

                          Fiscal Year 2011 Financial Statement Audit

                           Management Responses to Audit Findings



   As it relates to the payroll accounting, the OCFO verifies NFC data, independent of the
   PeopleSoft application, before submitting to GSA. The FEC is working closely with NFC
   and GSA on the integration of the payroll system with the GSA Pegasys accounting system.
   Additionally, the FEC is working on an Oracle upgrade project to replace the PeopleSoft
   application. These projects are expected to complete during FY 2012.

2. IT Security Control Weaknesses

   Auditor Recommendation #3: Implement baseline configuration standards for all
   workstations and require documentation and approval of any deviations from this standard.

   Management Response to Recommendation #3: Management concurs, in part, with
   recommendation #3. The agency plans to establish baseline configuration standards for all
   workstations. However, these baseline configuration standards cannot be implemented until
   the completion of the FEC USGCB/FDCC Project.

   Auditor Recommendation #4: Fully implement USGCB/FDCC standards.

   Management Response to Recommendation #4: Management concurs, in part, with
   recommendation #4. The FEC is already 75 percent USGCB/FDCC compliant and is
   working to implement additional components of the standard. However, management
   disagrees with the auditors that every agency must fully implement the USGCB/FDCC
   standard. It is the intent of the standard that only those controls within USGCB/FDCC
   conducive to each agency’s unique environment be implemented, and the decision to
   implement a particular control is left to the agency.

   Auditor Recommendation #5: Implement logging of configuration changes to ensure that
   all system changes are processed through the change management framework.

   Management Response to Recommendation #5: Management concurs, in part, with
   recommendation #5. Management recognizes the need to review and approval all
   configuration changes (including workstation configuration changes); however, management
   is currently evaluating whether the best course of action is to integrate this into the current
   change management framework.

   Auditor Recommendation #6: Include all components of the general support system,
   including workstations, into the organization’s vulnerability scanning process.

   Management Response to Recommendation #6: Management concurs, in part, with
   recommendation #6. Although FEC already scans workstations for viruses and spyware and
   has implemented an automated process for pushing security patches to all workstations to
   eliminate operating system vulnerabilities, additional vulnerability scanning of workstations
   is prudent. However, management has not evaluated the feasibility of integrating
   workstation scanning into its current vulnerability mitigation program. Scanning of


                                               27
                             Federal Election Commission

                      Fiscal Year 2011 Financial Statement Audit

                       Management Responses to Audit Findings


workstations is not scheduled to occur until completion of the FDCC’s project. Management
cannot determine whether workstation scanning will be a separate process or integrated into
the current process until then.

Auditor Recommendation #7: Implement procedures to ensure that scan results are subject
to a “root cause” analysis to ensure that problems are fully resolved.

Management Response         to   Recommendation       #7:    Management     concurs   with
recommendation #7.

Auditor Recommendation #8: Develop a process to ensure that vulnerabilities identified
through scanning are documented in a corrective action plan, and monitored to ensure timely
remediation.

Management Response         to   Recommendation       #8:    Management     concurs   with
recommendation #8.

Auditor Recommendation #9: Establish and publish a policy that requires annual
recertification of users’ access authorities.

Management Response to Recommendation #9: Management concurs, in part, with
recommendation #9. Although management agrees that recertification of user access
authorities is prudent, management believes a biennial review would be a more efficient use
of scarce resources.

Auditor Recommendation #10: Assure sufficient resources are provided to the document
and records management system so that it can be completed no later than June 2012.

Management Response to Recommendation #10: Management concurs, in part, with
recommendation #10; however, management cannot guarantee that available resources will
not be reallocated to accommodate the level of activity anticipated in connection with the
2012 election cycle.

Auditor Recommendation #11: Validate all active users to assure that only individuals who
are currently and properly authorized have access to FEC’s information and information
systems.

Management Response         to   Recommendation       #11:   Management     concurs   with
recommendation #11.

Auditor Recommendation #12: Analyze the reasons separated personnel retained access to
FEC systems, and develop additional controls to ensure that FEC timely removes access for
individuals who leave the agency.




                                          28
                             Federal Election Commission

                      Fiscal Year 2011 Financial Statement Audit

                       Management Responses to Audit Findings


Management Response to Recommendation #12: Management concurs with
recommendation #12. Management has discovered the reasons why five individuals’ access
was not properly removed and is evaluating various additional controls to ensure that FEC
timely removes access for individuals who leave the agency.

Auditor Recommendation #13: Establish controls that would automatically suspend an
individual’s network access if security awareness training is not completed within required
timeframes.

Management Response to Recommendation #13: Management concurs, in part, with
recommendation #13. Management agrees that removing network access is prudent for those
individuals who fail to complete security awareness training in a timely fashion; however,
Commission approval will be required prior to implementation.

Auditor Recommendation #14: Ensure all personnel and contractors that have not yet
taken the security awareness training complete it within the next 30 days.

Management Response to Recommendation #14:                    Management concurs with
recommendation #14.

Auditor Recommendation #15: Ensure that sufficient resources are assigned to the task of
testing the COOP in order to reduce the risks to FEC operations.

Management Response to Recommendation #15: Management concurs, in part, with
recommendation #15. Management cannot guarantee available resources will not be
reallocated to accommodate the level of activity anticipated in connection with the 2012
election cycle.

Auditor Recommendation #16: Develop specific control processes and issue operational
policies that establish automated control procedures to ensure that FEC uses software and
associated documentation in accordance with contract agreements and copyright laws.

Management Response to Recommendation #16: Management concurs, in part, with
recommendation #16. Management disagrees with many of the conclusions cited in the
finding. Management believes the risk of violating any copyright laws or user authorization
is minimal compared to the increase in productivity of facilitating controlled user software
installation software. Management has implemented the necessary security controls to
mitigate the risk to an acceptable level. Many of the items cited in the finding (such as
older versions of software) are based upon operational necessity. However, management
believes there may be room for improvement and will review its methods to ensure that FEC
uses software and associated documentation in accordance with contract agreements and
copyright laws. Upon conclusion of the review, management will adjust its procedures and
policies accordingly.




                                           29
                              Federal Election Commission

                       Fiscal Year 2011 Financial Statement Audit

                        Management Responses to Audit Findings


Implementing an automated process to control the security of the software installation
process is dependent upon funding. In addition, limiting the use of software and associated
documentation protected by quantity licenses to purchased licenses is dependent upon
evaluating the cost versus risk of purchasing quantity licenses or purchased licenses per
software package.

Auditor Recommendation #17: Restrict network folders & subfolders containing copyright
applications and software to only authorized users based on the operational policies
developed and implemented.

Management Response to Recommendation #17: Management concurs, in part, with
recommendation #17. Access to network folders & subfolders containing copyright
applications and software is already restricted; however, management will evaluate the
impact on operational effectiveness of further restricting access to userinstall and adjust its
methods accordingly.

Auditor Recommendation #18: Review all folders and files on the “userinstall” network
folder, and remove all applications and data that are not current, or do not meet the specific
operational purposes of this folder.

Management Response           to   Recommendation        #18:   Management      concurs    with
recommendation #18.

Auditor Recommendation #19: Formally adopt the NIST IT security controls established in
FIPS 200, Minimum Security Requirements for Federal Information and Information
Systems, and SP 800-53, Recommended Security Controls for Federal Systems and
Organizations.

Management Response to Recommendation #19: Management does not concur with
recommendation #19 for several reasons. Although the FEC is exempted from the Paperwork
Reduction Act (PRA), which requires federal agencies to adhere to the National Institute of
Standards and Technology (NIST) standards for information technology security, it continues
to use these standards as guidance. As a small agency, the FEC would be especially burdened
by the additional overhead expenses associated with adhering to all NIST standards. Instead,
the agency retains the flexibility to adopt NIST guidelines as appropriate, which was the
original intent of these standards, and to consider best practices identified from other sources
where those standards will best serve the FEC’s needs. NIST standards nevertheless form the
basis for the FEC’s security program. Utilizing this guidance, the FEC has identified 29 best
practices and implemented policies based upon them. The FEC is currently evaluating
additional best practices to determine whether incorporating them into its security program
will support the agency’s overall IT security needs. In addition, the agency’s 2009 third
party, independent Certification and Accreditation project was based upon NIST standards.
These policies and the Certification and Accreditation process not only describe the FEC’s
minimum security controls, but also affirm its decision not to rely upon a single source of



                                            30
                              Federal Election Commission

                       Fiscal Year 2011 Financial Statement Audit

                        Management Responses to Audit Findings


guidance for best practices. Instead, the FEC draws upon other sources and tailors those best
practices to its unique computing environment.

Auditor Recommendation #20: Require FEC contractors to adhere to the FAR related IT
controls when providing services to the FEC to ensure sufficient controls are in place to meet
best practices.

Management Response to Recommendation #20: Management does not concur with
recommendation #20. The FEC already requires contractors to comply with its IT security
policies and best practices.




                                            31
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
